                                     SOCIAL SECURITY

MEMORANDUM

Date:   December 30, 2010                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: TheSocial Security Administration’s Reporting of High-Dollar Overpayments Under
        Executive Order 13520 (A-15-10-21142)


        The attached final quick response evaluation presents the results of our review. Our
        objectives were to review the Accountable Official’s Quarterly High-Dollar Overpayment
        Reports for the quarters ended June and September 2010 and determine whether the
        method used for identifying high-dollar overpayments detected overpayments meeting
        the Executive Order criteria and whether the Agency complied with all requirements of
        the Executive Order.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
      QUICK RESPONSE
       EVALUATION
The Social Security Administration’s Reporting
     of High-Dollar Overpayments Under
            Executive Order 13520

                 A-15-10-21142




                December 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                       Background
OBJECTIVE
Our objectives were to review the Accountable Official’s Quarterly High-Dollar
Overpayment Reports to the Office of the Inspector General (OIG), as required by
Executive Order 13520, Reducing Improper Payments, for the quarters ended June and
September 2010 and determine whether (1) the method used for identifying high-dollar
overpayments detected overpayments meeting the Executive Order criteria and (2) the
Agency complied with all requirements of the Executive Order.

BACKGROUND
When the Government makes payments to individuals and businesses, such as
program beneficiaries, grantees, or contractors, or on behalf of program beneficiaries, it
must make every effort to confirm that the right recipient is receiving the correct
payment. On November 20, 2009, the President issued Executive Order 13520 1 “. . . to
reduce improper payments by intensifying efforts to eliminate payment error, waste,
fraud, and abuse in the major programs administered by the Federal Government, while
continuing to ensure that Federal programs serve and provide access to their intended
beneficiaries.” 2

As part of the Executive Order, each agency head is required to submit to the agency’s
OIG and the Council of Inspectors General on Integrity and Efficiency (CIGIE) a
quarterly report on high-dollar overpayments identified by the agency, subject to Federal
privacy policies and to the extent permitted by law. The report shall describe any
actions the agency has taken or plans to take to recover improper payments, as well as
any actions the agency intends to take to prevent improper payments from occurring in
the future.

According to Office of Management and Budget (OMB) Guidance, 3 a high-dollar
overpayment is any overpayment that exceeds 50 percent of the correct amount of the
intended payment where

1. the total payment to an individual exceeds $5,000 as a single payment or in
   cumulative payments for the quarter or



1
    74 Fed. Reg. 62201 (November 20, 2009).
2
    Id. at Section 1.
3
 OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), p.18, March 22, 2010.



SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)           1
2. the payment to an entity 4 exceeds $25,000 as a single payment or in cumulative
   payments for the quarter.

Examples of overpayments that would need to be included in an agency’s quarterly
report on high-dollar overpayments include the following.

1. A single payment or cumulative payments to the wrong individual or entity that
   exceeds the respective $5,000 or $25,000 limit.
2. A single payment or cumulative payments to the correct individual of $6,500 when
   the intended amount was $3,000 (the payment is more than 50-percent higher than
   the intended amount, and the total payment is above $5,000, thus meeting both
   criteria to qualify as a high-dollar improper payment to an individual).
3. Cumulative amounts of overpayments to an entity that exceed the 50-percent and
   $25,000 threshold during a quarter (for example, even if an agency has an ongoing
   relationship with an entity and typically corrects overpayments or underpayments in
   its next payment cycle, it would need to report these improper payments if they are
   above the 50 percent and $25,000 amount for the quarter).

STEWARDSHIP REVIEWS

The Office of Quality Performance (OQP) performs stewardship reviews to examine the
non-medical elements in the Old-Age, Survivors and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) programs related to the payment accuracy and
entitlement/eligibility of benefit payments made during a sample period. Each month,
OQP selects a statistically valid national sample of OASDI beneficiaries who received a
payment(s) during the review period. For each sample selected, the beneficiary or
representative payee is interviewed; collateral contacts are made, as needed; and all
non-medical factors of entitlement are redeveloped as of the current sample month.
SSI payment accuracy rates are determined by reviewing a statistically valid national
sample of the SSI recipient rolls, selected monthly from individuals who have received a
payment during the fiscal year (FY).

IMPROPER PAYMENTS

Each year, the Social Security Administration (SSA) reports payment accuracy rates for
the OASDI and SSI programs based on its stewardship reviews. The Agency uses
these reviews as the basic measure to report on the accuracy of benefit payments.
Each year, SSA reports over- and underpayments from its stewardship reviews of
nonmedical aspects of the Old-Age and Survivors Insurance (OASI), Disability
Insurance (DI), and SSI programs. In accordance with OMB’s guidelines implementing

4
  An entity is a non-individual that owes an outstanding improper payment. The term entity excludes an
individual acting in either a personal or commercial capacity (that is, a sole proprietor) or Federal, state,
and local government agencies. OMB Circular A-123, Management’s Responsibility for Internal Control,
Requirements for Implementing Executive Order 13520: Reducing Improper Payments (Appendix C,
Part III), p. 22, March 22, 2010.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)                    2
the provisions of the Improper Payments Information Act of 2002 (IPIA), 5 SSA reports
payments that should not have been made or payments that were made in an incorrect
amount as improper.

SSA issued its first two high-dollar reports to the OIG on July 30 and October 29, 2010
for the quarters ended June 30 and September 30, 2010, respectively. Based on its
sample of annual payment accuracy reviews from a representative sample of OASDI
and SSI benefit payment cases, the Agency did not report any instances that met the
definition of a high-dollar overpayment for the period October 1, 2009 through
September 30, 2010. In addition, SSA performed a similar analysis of its representative
sample cases for FYs 2008 and 2009 and reported that no OASDI or SSI benefit
payment cases met the definition of a high-dollar overpayment.




5
    Pub. L. No. 107-300, 116 Stat. 2350 (codified as amended in 31 U.S.C. § 3321 note).


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   3
                                                       Results of Review
We reviewed reports on quarterly high-dollar overpayments for the quarters ended
June 30 and September 30, 2010 to ensure the Agency implemented a methodology for
identifying high-dollar overpayments that detected overpayments and addressed all
requirements of the Executive Order. Overall, our review determined that although the
Agency addressed all requirements of the Executive Order based on the methodology
used, SSA’s methodology for identifying high-dollar overpayments did not detect
overpayments that met the criteria of the Executive Order.

HIGH-DOLLAR OVERPAYMENTS NOT IDENTIFIED USING THE AGENCY’S
METHODOLOGY

We reviewed the methodology the Agency used to identify high-dollar overpayments to
determine whether the method detected overpayments that met the Executive Order
criteria. We gained an understanding of how the Agency used the results from the
stewardship reviews in determining whether any cases met the criteria for a high-dollar
overpayment. We determined that although the stewardship reviews provided adequate
results for determining the accuracy of payments, SSA’s reviews did not detect high-
dollar overpayments that were required to be reported under the Executive Order.

Stewardship Sample Period Usually Included Only 1 Month of Payment Data

SSA received clarifications from OMB on April 27 and June 2, 2010 for reporting high-
dollar improper overpayments. OMB stated, “. . . that SSA should review improper
overpayments 6 identified during stewardship reviews (and any other relevant
processes), and, as needed, report quarterly that either no payments were identified, or
any payments that are identified.” OMB acknowledged that “SSA stated that it is highly
unlikely that the agency would identify improper overpayments to individuals, including
via its stewardship reviews in SSI that would meet the criteria in the Executive Order’s
implementing guidance….” During, or shortly after each FY, OQP conducted
stewardship reviews of the OASDI and SSI payments issued in that FY.

OQP bases its stewardship reviews on a monthly sample selection from all OASDI
beneficiaries who receive a payment(s) during the review period and are in current pay
status during the sample period. The SSI sample is drawn from all cases of SSI
recipients who received a payment during the FY regardless of their current pay status.
For example, in SSI, if the month sampled was August, the sample period would have
been July 2 through August 1. The OASDI sample reviews all payments on a Social
Security number made in a calendar month. For the FY 2009 stewardship reviews,
approximately 80 OASI, 40 DI, and 360 SSI cases were reviewed monthly.


6
 SSA distinguishes an improper payment from an overpayment based on whether it meets the definition
agreed on with OMB. If a payment is considered avoidable, it is characterized as improper. See
Appendix C for the definition of improper.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)          4
Once a case is sampled, the Electronic Quality Assurance (eQA) system calculates the
recurring and retroactive payments7 for the sample period. This system assists OQP in
its effort to oversee the completeness and accuracy of OASDI and SSI claims. The
sample dollars can be adjusted during the review if the amounts are incorrect. The data
included in the system reflect the payments that were issued only in the sample period
and therefore may not reflect the total benefit payments and/or overpayments that
occurred in a quarter for that case. For example, in the SSI review, if a case was
sampled in August 2010, any recurring or retroactive payments that were made on the
sampled case from July 2 through August 1 would be calculated by eQA and included in
the system. The sample dollars would be verified during the review and adjusted, if
needed. The system would not include any payments that were made in the remainder
of that quarter (that is, July 1 and August 2 through September 30). Therefore, the data
reviewed for reporting on quarterly high-dollar overpayments usually do not include the
total benefit payments and/or overpayments to a beneficiary or recipient that occurred in
the entire quarter. By using data that do not include payments actually made for all
3 months in a quarter, the Agency may not identify high-dollar overpayments.

Stewardship Review Results Include Payment Data from Previous Quarters

For the quarterly high-dollar reports issued in the quarters ended June 30 and
September 30, 2010, SSA used the results documented in the eQA system for the
sample cases cleared 8 during the reporting period. For example, if a case was sampled
in April 2010, but the review was not completed until September 2010, the payment
data for the sample period (that is, March 2 through April 1) would be included in the
review for the quarter ended September 2010. According to OQP, it is not possible to
provide findings for cases sampled in each quarter because the field sites have until the
end of January to clear cases sampled for the previous October through September,
and the consistency review of these cases is not completed until the end of February.
Further editing and review of anomalies continues throughout most of March. Therefore,
in some cases, OQP may have to wait over 1 year before the case is fully completed.

We reviewed the supporting documentation for the quarter ended September 30, 2010,
provided by OQP, to determine the number of cases that were included in the analysis
and sampled and cleared in the September 2010 quarter. Based on this support, only
7 percent of OASDI and 8 percent of SSI cases included in the review were sampled
and cleared during the September quarter. Some cases cleared during the quarter
ended September 30, 2010 were sampled as early as October 2009. Because
stewardship cases can take several months to be cleared, the data reviewed for the
high-dollar overpayment reports under the Executive Order will typically include
payments that relate to prior quarters. Therefore, since over 90 percent of the data
7
 Recurring payments are regular monthly payments and a retroactive payment is a payment issued
during the sample period which is for a month(s) before the sample month.
8
  Per OQP, “cleared” is the term used to define the point that the OQP field site has relinquished
jurisdiction of a sampled case to Central Office because all actions (for example, documentation,
development, and internal reviews) are complete but it is not the date that OQP has finished its review of
the case.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)                 5
reviewed in the September quarter related to a previous period, only a small percentage
of payments issued in September were included in the analysis for the high-dollar
report.

SSA OIG IDENTIFIED HIGH-DOLLAR OVERPAYMENTS USING ALTERNATIVE
METHOD

We designed a methodology for identifying high-dollar overpayments by using data from
one segment of the Master Beneficiary Record (MBR); Recovery of Overpayments,
Accounting and Reporting (ROAR) System; and Supplemental Security Record (SSR).
We focused on OASDI beneficiaries and SSI recipients who received single or
cumulative payments in excess of $5,000 for each quarter from October 2009 through
June 2010. 9 We matched the populations against the overpayment data on the ROAR
and SSR to identify all beneficiaries and recipients who may have met the payment
criteria of the Executive Order as well as had an overpayment established on their
record.

We further analyzed the populations to identify individual cases that met the criteria for
being reported as a high-dollar overpayment according to the Executive Order. Refer to
Appendix B for the scope and methodology used for analyzing the populations. Based
on our analysis, we identified three OASDI and five SSI cases that potentially met the
criteria of the Executive Order. For each of these cases, we determined that the
beneficiary or recipient obtained payments in excess of $5,000 in one of the quarters
from October 2009 through June 2010. During that quarter, each beneficiary or
recipient also had an overpayment in excess of 50 percent of the correct amount of the
intended payment for that quarter.

At our request, SSA reviewed the eight cases and confirmed that three OASDI cases
and one SSI case met the criteria for being reported as a high-dollar overpayment under
Executive Order 13520. SSA stated it was aware that high-dollar overpayments
existed. However, according to SSA, the review of just these eight cases was very
time-consuming and labor-intensive. The Agency provided the required information
within 2 weeks while also conducting regular work intermittently. The Agency was
unable to provide us with an exact amount of time it took to complete its review of each
case.

Because this process requires an individual analysis of cases, it is imperative that the
selection criteria be refined to only include the cases with the highest probability of
having high-dollar overpayments. We will work to refine the search criteria for the next
quarterly high-dollar reporting requirement.




9
 Because of time limitations, a data extract was not requested for the quarter ended
September 30, 2010.



SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   6
REQUIREMENTS OF EXECUTIVE ORDER ADDRESSED BY THE AGENCY

In March 2010, OMB issued guidance 10 for implementing the requirements of the
Executive Order. We reviewed the Accountable Official’s Quarterly High-Dollar
Overpayment Reports for the quarters ended June and September 2010 to ensure the
Agency addressed all requirements of the Executive Order.

Required Information Included in Reports

According to OMB’s guidance, all agencies with programs susceptible to significant
overpayments under the IPIA are required to submit reports on high-dollar
overpayments. The report shall

1. list all high-dollar overpayments identified by the agency during the quarter;
2. describe whether each high-dollar overpayment was made to an entity or individual,
   and the city/county and State where that entity or individual was located;
3. list the program responsible for each high-dollar overpayment error;
4. describe any actions the agency has taken or plans to take to recover high-dollar
   overpayments (the report should address overall actions and strategies and not
   focus on individual payments); and
5. describe any actions the agency will take to prevent overpayments from occurring in
   the future (the report should address overall actions and strategies, and not focus on
   individual payments).

The guidance also states that if an agency has no high-dollar overpayments during the
reporting period, it does not need to complete a report on high-dollar overpayments for
that period. The agency should send a letter to the Controller of OMB to inform OMB
that the agency had no high-dollar overpayment errors. Agencies shall complete,
submit, and publicize these reports at least once a quarter. Each quarterly report shall
be completed, submitted, and published by the last day of each quarter.

Based on the methodology SSA used for the quarters ended June 30 and
September 30, 2010, the Agency did not report any high-dollar overpayments that met
the criteria of the Executive Order. The Agency submitted emails to OMB on
July 30, 2010 and October 29, 2010, stating that based on the annual payment
accuracy reviews from a representative sample of OASDI and SSI cases, no cases met
the definition of a high-dollar overpayment. Both of these reports were submitted to the
OIG and OMB timely.




10
  OMB Circular A-123, Management’s Responsibility for Internal Control, Requirements for Implementing
Executive Order 13520: Reducing Improper Payments (Appendix C, Part III), March 22, 2010.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)           7
Website Submission

According to the OMB guidance, within 15 days of submission of the quarterly high-
dollar report to the OIG, agencies shall make these reports available to the public by, at
a minimum, submitting them to the improper payments Website. 11 If the agency has no
high-dollar overpayments for that period, the agency shall submit a “no report” status to
the improper payments Website. On July 30, 2010 and October 29, 2010, the Agency
submitted an email to OMB stating that no improper payments were identified during
each quarter, respectively. Although the Agency is required to submit these reports to
the improper payment Website, OMB has acknowledged that the Website does not yet
have the functionality that would allow agencies to post the high-dollar reports to the
Website. Therefore, to ensure the public is able to view these reports, SSA updated its
Website 12 with information relating to high-dollar overpayments for the quarters ended
June and September 2010.




11
     http://www.paymentaccuracy.gov.
12
     http://www.ssa.gov/improperpayments/.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   8
                                  Matters for Consideration
Overall, our review determined that although the Agency addressed all requirements of
Executive Order 13520 based on the results obtained using the stewardship sample
cases, the methodology for identifying high-dollar overpayments did not detect existing
overpayments that met the criteria of the Executive Order. While the data obtained
through the stewardship reviews provide adequate results for payment accuracy, the
reviews did not detect high-dollar overpayments required to be reported under the
Executive Order. The payment information used for reviewing high-dollar overpayments
for the quarters ended June 30 and September 30, 2010 only included payments made
during a 1-month period, which in most cases was outside the quarter reported on. By
using data that do not include payments actually made for all 3 months in a quarter, the
Agency may not identify high-dollar overpayments. Additionally, because stewardship
cases can take several months to be cleared, the data reviewed for the high-dollar
reports will typically include mostly payments that relate to prior quarters.

Our review also determined that, although the Agency reported no high-dollar
overpayments during the 2 quarters under review, high-dollar overpayments would have
been identified if SSA had employed a methodology focused on analyzing data extracts
from the MBR, ROAR, and SSR. Our process used data from overpayments already
identified by the Agency associated with the reporting quarter. The Executive Order
requires that agency heads submit the quarterly reports on high-dollar overpayments to
boost transparency among agencies and the public. The Agency did not take additional
steps to identify and report on the high-dollar overpayments using other information.
The stewardship reviews focused on overpayments that had not yet been identified.
The Agency should implement a cost-effective way to use existing overpayment data to
identify and report high-dollar overpayments.




SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   9
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Defining Erroneous Payments
APPENDIX D – OIG Contacts and Staff Acknowledgments




SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)
                                                                         Appendix A

Acronyms
    APP                Annual Performance Plan

    CIGIE              Council of Inspectors General on Integrity and Efficiency

    DI                 Disability Insurance

    eQA                Electronic Quality Assurance

    FY                 Fiscal Year

    IPIA               Improper Payments Information Act of 2002

    MBR                Master Beneficiary Record

    OASDI              Old-Age, Survivors and Disability Insurance

    OASI               Old-Age and Survivors Insurance

    OIG                Office of the Inspector General

    OMB                Office of Management and Budget

    OQP                Office of Quality Performance

    Pub. L. No.        Public Law Number

    ROAR               Recovery of Overpayments, Accounting and Reporting

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    SSN                Social Security Number

    SSR                Supplemental Security Record

    U.S.C.             United States Code




SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)
                                                                         Appendix B

Scope and Methodology
Our objectives were to review the Accountable Official’s Quarterly High-Dollar
Overpayment Reports to the Office of the Inspector General (OIG), as required by
Executive Order 13520, Reducing Improper Payments, for the quarters ended
June 30 and September 30, 2010 and determine whether (1) the method used for
identifying high-dollar overpayments detected overpayments meeting the Executive
Order criteria and (2) the Agency complied with all requirements of the Executive Order.
To accomplish our objectives, we:

• Reviewed the Accountable Official’s Quarterly High-Dollar Overpayment Reports
  under Executive Order 13520, Reducing Improper Payments, for the quarters ended
  June and September 2010.

• Reviewed applicable Federal laws.

• Reviewed applicable Office of Management and Budget guidance.

• Reviewed the Fiscal Year (FY) 2009 Stewardship Review Reports for the Old-Age,
  Survivors and Disability Insurance (OASDI) and Supplemental Security Income (SSI)
  programs.

• Requested data from the Office of Quality Performance to support the cases
  reviewed for the quarterly high-dollar overpayment reports.

• Obtained a data extract for one segment 1 of the Master Beneficiary Record (MBR);
  Recovery of Overpayments, Accounting and Reporting System (ROAR); and
  Supplemental Security Record (SSR) from July 1, 2009 through June 30, 2010.

       o For the MBR and ROAR extract, we identified 9,160 unique Social Security
         number (SSN) accounts paid in excess of $5,000 during a quarter and also had
         an overpayment established from July 1, 2009 through September 10, 2010.
       o For the SSR extract, we identified 2,277 unique SSN accounts paid in excess of
         $5,000 during a quarter and had an overpayment established from July 2009
         through September 2010.

• Analyzed each of the two populations to determine whether any cases appeared to
  meet the criteria of a high-dollar overpayment under the requirements of Executive
  Order 13520.


1
    One segment represents 5 percent of the population.


SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   B-1
    o For the MBR and ROAR extracts, the 9,160 unique SSN accounts were sorted
      by the Type of Event code to identify all unique SSN accounts with a Type of
      Event code “02 – Incorrect Computation.” Based on prior knowledge, this event
      type is considered improper by the Agency and therefore would be reportable for
      the quarterly high-dollar reports. There were 1,507 unique SSN accounts in this
      population. We then began analyzing each case with an overpayment in the
      ESTAMT (Estimated Amount) column greater than $5,000 beginning at the top
      of the listing. We analyzed the MBR, ROAR, and overpayment letters from the
      Online Retrieval System to determine whether the case met the criteria for a
      high-dollar overpayment. We analyzed 60 cases.

    o For the SSR extract, the 2,277 unique SSN accounts were sorted by the
      OPSQAMT (Overpayment Sequence Amount) for all amounts greater than
      $5,000 to reduce the number of beneficiaries in the population. There were
      18 unique SSN accounts in this population. We analyzed only the cases with
      OPREA (overpayment events) of MU (Multiple Reasons), PS (Payment Status
      Change) or EW (Wages). There were five beneficiaries in this population. We
      analyzed the SSR on all five cases to determine whether the cases met the
      criteria for a high-dollar overpayment.

• Analyzed the narrative of the Accountable Official’s Quarterly High-Dollar
  Overpayment reports to ensure compliance with all requirements of the Executive
  Order.

We determined that the computerized data used during our review were sufficiently
reliable given our objective, and the intended use of the data should not lead to
incorrect or unintentional conclusions.

We performed our review in August through November 2010 in Baltimore, Maryland.
We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)   B-2
                                                                                                                      Appendix C

Defining Erroneous Payments 1
The following table identifies the types of Social Security Administration (SSA) payments, programs affected, current reporting status,
reasons for the payments, and their classification. There are two classifications.
•      Unavoidable - Payments resulting from legal or policy requirements. These payments are not considered erroneous.
•      Avoidable - Payments that should be reflected in the erroneous payment estimate because they could be reduced through
       changes in administrative actions.

     Types of Payments           Program     Current Status             Reason for Overpayment/Underpayment                Classification
    Payments following a         DI 2 and   Not currently        When SSA is required by law to make payments during       Unavoidable
    cessation of eligibility     SSI 3      reflected as an      the appeals process, these payments are not erroneous.
    due to a continuing                     error
    disability review
    Payments made under          SSI        Reported as an       When due process requires that SSI payments continue,     Unavoidable
    the Goldberg-Kelly                      unavoidable          although the Agency has determined that a payment
    due-process Supreme                     erroneous            reduction or termination is in order, such payments are
    Court decision                          payment in the       not erroneous.
                                            APP 4
    Payments made                SSI        Reported as an       The law requires that SSI payments be made on the first   Unavoidable
    incorrectly because of                  unavoidable          of the month based on projected income for that
    program design                          erroneous            particular month. Changes in the recipient’s status can
                                            payment in the       occur during the month, which causes the recipient’s
                                            APP                  eligibility to change. Because SSA cannot prevent the
                                                                 overpayment from being made, this situation should not
                                                                 be reflected in the Agency’s erroneous payment rate.

1
    Table provided by SSA Office of Financial Policy and Operations in July 2010.
2
    Disability Insurance (DI).
3
    Supplemental Security Income (SSI).
4
    Annual Performance Plan (APP).

SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)                                             C-1
     Types of Payments        Program       Current Status          Reason for Overpayment/Underpayment                      Classification
    Payments issued after    OASI 5, DI,   Not currently     Dollars released after death (either electronically or in the   Unavoidable
    death                    and SSI       reflected as an   form of a paper check) that are reclaimed by the                except for
                                           error 6           Department of the Treasury or returned unendorsed,              fraud or
                                                             should not be reflected in the Agency's erroneous               misuse
                                                             payment rate. Conversely, payments made after death
                                                             that are improperly cashed or withdrawn, and are subject
                                                             to overpayment recovery, should be reported.
    Non-receipt of           OASI, DI,     Not currently     Duplicate payments issued in accordance with the                Unavoidable
    payment                  and SSI       reflected as an   Robinson-Reyf Court decision are unavoidable and                except for
                                           error             should not be reflected in the Agency's reports on              fraud or
                                                             erroneous payments. The only exception is duplicates            misuse
                                                             incorrectly sent to abusers.
    Payments based on        DI and        Not currently     Payments are not erroneous if they are the result of a          Should not be
    medical eligibility      SSI           reflected as an   medical improvement review standard or a situation              included in the
                                           error             where the beneficiary would have been ineligible had the        erroneous
                                                             law permitted retroactive ineligibility.                        payment
                                                                                                                             estimate
    Payments made for        DI and        Not currently     When program design requires that the Agency make               Unavoidable
    OASI and DI              OASI          reflected as an   payments based on estimated earnings, these payments
    beneficiaries based on                 error             should not be considered erroneous.
    earnings estimates
    Undetected error         OASI, DI,     Not currently     The Agency should not reflect undetected error in its           Should not be
                             and SSI       reported as an    erroneous payment rate unless it has evidence that a            included in the
                                           error             specific type of erroneous payment was made.                    erroneous
                                                                                                                             payment
                                                                                                                             estimate
    Duplicate payments to    Adminis-      Not currently     Systems do not capture when the overpayment occurs;             Avoidable
    attorneys, vendors,      trative       reported as an    however, this type of error does not meet the reporting
    and employees            Expense       error             threshold.




5
    Old-Age and Survivors Insurance (OASI).
6
 Per Office of Quality Performance (OQP), these payments can be recorded as erroneous if not returned timely per the stewardship review
protocol.

SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)                                                   C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager, Financial Audit Division

Acknowledgments
In addition to those named above:

   Kelly Stankus, Senior Auditor

   Lori Lee, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-21142.




SSA’s Reporting of High-Dollar Overpayments Under Executive Order 13520 (A-15-10-21142)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
